Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the City of Murfreesboro, Tennessee, Police Department


GR-40-03-003


November 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the city of Murfreesboro, Tennessee, Police Department (grantee).  The purpose of the grants is to enhance community policing.  The grantee was awarded a total of $2,005,139 to hire 27 new police officers and $104,456 to redeploy 4.2 sworn officers from its dispatch center into community policing.
We found the grantee to be in material noncompliance with COPS' grant requirements.  We reviewed the grantee's compliance with seven essential grant conditions, and found the grantee's retention of officer positions and community policing activities to be acceptable.  However, we found weaknesses in the areas noted below.  As a result of the identified deficiencies, we question $1,117,521 in grant funds received and recommend an additional $78,546 be deobligated and put to better use.1

The grantee's budget for locally funded officer positions decreased during fiscal year 1998.
The grantee did not increase its police force by the number of officers funded by the COPS hiring grants.  In our judgment, the grantee is in violation of COPS' non-supplanting requirement.  Therefore, we question $239,955.
The grantee did not maintain financial records to accurately account for its local match funds.  Therefore, we question a total of $849,796 in unsupported costs, consisting of $198,182 for the Funding Accelerated for Smaller Towns (FAST) grant, $224,808 for the Universal Hiring Program (UHP) Supplemental 1 grant, $240,134 for the UHP Supplemental 2 grant, $112,132 for the UHP Supplemental 3 grant,   $55,309 for the UHP Supplemental 4 grant, and $19,231 for the Making Officer Redeployment Effective (MORE) 2000 grant.
The grantee claimed reimbursements for one officer who received worker's compensation payments.  Therefore, we question the $1,860 in unallowable costs. 
The grantee did not redeploy sworn officers with the MORE 2000 grant and the grant ended August 31, 2001. Therefore, we question $25,910 already drawn down for reimbursement and recommend the remaining $78,546 be deobligated and put to better use.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.